No. 20 - ______

IN THE SUPREME COURT OF THE UNITED STATES
___________
CARL SKIDMORE—Petitioner
v.
JOE A. LIZARRAGA—Respondent
PROOF OF SERVICE
I, ETHAN H. STONE, do swear or declare that on this date, August 4, 2020, as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR WRIT OF
CERTIORARI, and APPENDIX TO PETITION FOR WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days. The
names and addresses of those served are as follows:
Gregory A. Ott
Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Ste. 11000
San Francisco, CA 94102
(415) 510-3781
Attorney for Respondent

District Attorney’s Office
Sonoma County
600 Administration Drive, Room 212 J
Santa Rosa, CA 95403
(707) 565-2311

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 4, 2020 at Berkeley, California.
________________________
ETHAN H. STONE

